HHS/OIG-Audit--"Review of the Health Care Financing Administration Philadelphia Regional Office's Efforts to Identify and Recover Overpayments for 1-Day Inpatient Hospital Stays in Pennsylvania, (!-03-00-00007)"
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Review of the Health Care Financing Administration Philadelphia Regional Office's Efforts to Identify and Recover
Overpayments for 1-Day Inpatient Hospital Stays in Pennsylvania," (A-03-00-00007)
April 24, 2001
Complete
Text of Report is available in PDF format (1.45 MB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The Health Care Financing Administration (HCFA) Philadelphia regional office (RO) reviewed whether hospitals in Pennsylvania
were correctly billing Medicare for 1-day inpatient hospital stays. The RO found that 394 claims (about 26 percent of those
reviewed) were paid in error resulting in overpayments totaling about $4.8 million. This final report points out that $1.65
million of the overpayments were not collected by the fiscal intermediaries (FI) because in some cases a specific overpayment
adjustment was not automatically recovered if it was processed after the related hospital cost report was settled. Based
on our finding, the FIs are in the process of collecting the $1.65 million. We recommended, among other things, that HCFA
monitor the FIs collection efforts to ensure the overpayments are recovered, and direct the FIs to implement procedures
to ensure future overpayment adjustments made after the providers' cost reports are settled are collected from providers.